No. _____________
In The Supreme Court of the United States

Keith Henderson, Petitioner
vs.
Eddie Miles, Warden, Stillwater Correctional Facility, Minnesota, Respondent.

INDEX TO APPENDIX

Appendix A: Eighth Circuit Court of Appeals Judgment Denying Application for
Certificate of Appealability
Appendix B: Order of the District Court Adopting Report and Recommendation
Appendix C: Report and Recommendation of the Magistrate Judge
Appendix D: Decision of the Minnesota Supreme Court
Appendix E: Text of 28 U.S.C. § 2254

Appendix A

United States Court of Appeals
For The Eighth Circuit
Thomas F. Eagleton U.S. Courthouse
111 South 10th Street, Room 24.329

St. Louis, Missouri 63102
VOICE (314) 244-2400
FAX (314) 244-2780
www.ca8.uscourts.gov

Michael E. Gans
Clerk of Court

February 18, 2020

Mr. Zachary Allen Longsdorf
LONGSDORF LAW FIRM
Suite 3
5854 Blackshire Path
Inver Grove Heights, MN 55076
RE: 19-3165 Keith Henderson v. Eddie Miles
Dear Counsel:
Enclosed is a copy of the dispositive order in the referenced appeal. Please note that
FRAP 40 of the Federal Rules of Appellate Procedure requires any petition for rehearing to be
filed within 14 days after entry of judgment. Counsel-filed petitions must be filed electronically
in CM/ECF. Paper copies are not required. This court strictly enforces the 14 day period. No
grace period for mailing is granted for pro-se-filed petitions. A petition for rehearing or a
motion for an extension of time must be filed with the Clerk's office within the 14 day period.
Michael E. Gans
Clerk of Court
MDS
Enclosure(s)
cc:

Ms. Jean Burdorf
Ms. Kate M. Fogarty
Mr. Matthew Frank
Mr. Keith Henderson
Ms. Brittany D. Lawonn
District Court/Agency Case Number(s): 0:18-cv-02828-MJD

1 of 2
Appellate Case: 19-3165

Page: 1

Date Filed: 02/18/2020 Entry ID: 4882270

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
___________________
No: 19-3165
___________________
Keith Henderson
Petitioner - Appellant
v.
Eddie Miles, Warden Stillwater Correctional Facility, Minnesota
Respondent - Appellee
______________________________________________________________________________
Appeal from U.S. District Court for the District of Minnesota
(0:18-cv-02828-MJD)
______________________________________________________________________________
JUDGMENT

Before COLLOTON, ERICKSON, and KOBES, Circuit Judges.

This appeal comes before the court on appellant's application for a certificate of
appealability. The court has carefully reviewed the original file of the district court, and the
application for a certificate of appealability is denied. The appeal is dismissed.
February 18, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
____________________________________
/s/ Michael E. Gans

2 of 2
Appellate Case: 19-3165

Page: 1

Date Filed: 02/18/2020 Entry ID: 4882270

Appendix B

CASE 0:18-cv-02828-MJD-BRT Document 22 Filed 08/29/19 Page 1 of 2

UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA

Keith Henderson,

Civ. No. 18-2828 (MJD/BRT)
Petitioner,

v.
Order
Eddie Miles, Warden, MCF-Stillwater,
Respondent.

Zachary A. Longsdorf, Esq., Longdsorf Law Firm, PLC, counsel for Petitioner.
Brittany D. Lawonn, Esq., Assistant County Attorney, Hennepin County
Attorney’s Office, counsel for Respondent.

The above matter comes before the Court upon the Report and
Recommendation of United States Magistrate Judge Becky R. Thorson dated June
17, 2019. Petitioner has objected to the conclusions and recommendations in the
Report and Recommendation.
Pursuant to statute, the Court has conducted a de novo review of the
record. 28 U.S.C. § 636(b)(1); Local Rule 72.2(b). Based upon that review, the
Court will ADOPT the Report and Recommendation in its entirety.

CASE 0:18-cv-02828-MJD-BRT Document 22 Filed 08/29/19 Page 2 of 2

IT IS HEREBY ORDERED that:
1.

Respondent’s Motion to Dismiss (Doc. No. 11) is GRANTED;

2.

Petitioner’s petition for a writ of habeas corpus (Doc. No. 1) is

DENIED;
3.

Petitioner’s request for a certificate of appealability is DENIED; and

4.

This action is DISMISSED WITH PREJUDICE.

LET JUDGMENT BE ENTERED ACCORDINGLY.

Date: August 28, 2019

s/ Michael J. Davis
MICHAEL J. DAVIS
United States District Court

2

Appendix C

CASE 0:18-cv-02828-MJD-BRT Document 17 Filed 06/17/19 Page 1 of 15

UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA

Keith Henderson,

Civ. No. 18-2828 (MJD/BRT)
Petitioner,

v.
Eddie Miles, Warden, MCF-Stillwater,

REPORT AND
RECOMMENDATION

Respondent.

Zachary A. Longsdorf, Esq., Longdsorf Law Firm, PLC, counsel for Petitioner.
Brittany D. Lawonn, Esq., Assistant County Attorney, Hennepin County Attorney’s
Office, counsel for Respondent.

BECKY R. THORSON, United States Magistrate Judge.
Petitioner Keith Henderson is serving a life sentence for first-degree murder, plus
a five month consecutive sentence for committing a crime for the benefit of a gang. He
seeks relief in federal court pursuant to a petition for writ of habeas corpus under
28 U.S.C. § 2254. (Doc. No. 1, Habeas Pet.) Respondent Eddie Miles moves to dismiss.
(Doc. No. 11.) For the reasons stated below, this Court recommends that Respondent’s
motion to dismiss be granted.
I.

Background
A.

Petitioner’s Trial and Direct Appeal

Petitioner was convicted of murdering Juwan Gatlin, a fellow member of a street
gang called the Mickey Cobras. State v. Henderson, 620 N.W.2d 688, 692–93 (Minn.

CASE 0:18-cv-02828-MJD-BRT Document 17 Filed 06/17/19 Page 2 of 15

2001) (“Henderson I”). Gatlin was shot to death at approximately 11:00 a.m. on
August 7, 1998, in an alley near Logan Avenue in Minneapolis. Id. at 693. He was shot
between thirteen and fifteen times with a .40 caliber Smith and Wesson handgun. Id.
At trial, Herbert Williams, a member of the Mickey Cobras, testified to a
conversation he had with Donte Evans regarding Evans’s participation in the Gatlin
murder. Henderson I, 620 N.W.2d at 694. According to Williams, Evans told him, “T, we
got away with it * * * we got [Gatlin], we got [Gatlin].”1 Evans described to Williams
how he, Petitioner, and Daryl McKee went to the back of April Bell’s house,2 that
Petitioner pulled out the gun and shot Gatlin and then passed the gun to Evans. Evans
told Williams that Gatlin, still alive, said “I’m dead, T, I’m dead.” Id. at 694–95. Evans
then told Williams that he shot Gatlin five times in the head. Id. at 695.
Dedra Johnson, a former girlfriend of Gatlin and a neighbor of Petitioner, testified
that Petitioner told her, “I did it” in reference to Gatlin’s murder, but after seeing the
shock on Johnson’s face, Petitioner told her he was joking. Henderson I, 620 N.W.2d at
695. Johnson testified before the grand jury that Petitioner told her he shot Gatlin after
pushing him in an alley. Id. When Johnson recanted this testimony at trial, the court
allowed the prosecution to admit Johnson’s grand jury testimony as substantive evidence.
Id.
“T” was a slang reference for fellow gang members. Henderson I, 620 N.W.2d at
694 n.3.
1

April Bell (“Bell”) lived in a house in Minneapolis with her mother Melanie Bell.
Henderson I, 620 N.W.2d at 693. Bell was a member of the Mickey Cobras. The Bell
residence was one block from where Gatlin’s body was found. Id.
2

2

CASE 0:18-cv-02828-MJD-BRT Document 17 Filed 06/17/19 Page 3 of 15

Paul Givens testified that while in jail with Petitioner, Petitioner told him that he
pushed a guy over in an alley and shot him in the leg, arm, and head. Henderson I, 620
N.W.2d at 695. Givens testified that Petitioner told him the victim said, “don’t shoot me
no more. I’m already dead.” Id. Although Givens had been declared incompetent to stand
trial due to marginal intellectual capacity and dementia from severe head trauma, the
district court found him competent to testify in Petitioner’s case. Id.
The jury found Petitioner guilty of first-degree murder and a crime for the benefit
of a gang. Henderson I, 620 N.W.2d at 695. He was sentenced to life in prison on the
murder count and five years on the benefit-of-a-gang count, to be served consecutively.
On January 11, 2001, the Minnesota Supreme Court affirmed Petitioner’s conviction on
direct appeal. See id.
B.

Petitioner’s 2016 Petition for Postconviction Relief in State Court is
Dismissed as Untimely

On May 27, 2016, Petitioner filed a petition for postconviction relief in state court.
See Henderson v. State, 906 N.W.2d 501, 505 (Minn. 2018) (“Henderson III”).3
Petitioner raised claims based on an affidavit from Rajab “Shorty” Jabbar that Petitioner
claimed impeached Williams’s testimony regarding Williams’s motivation to testify and
alleged an alternative perpetrator of Gatlin’s murder. (Doc. No. 12, App’x Vol. I at 322.)
Petitioner alleges that the “most damaging” evidence against him came from Williams,
This was Petitioner’s third state court petition. See Henderson v. State, 675
N.W.2d 318 (Minn. 2004) (“Henderson II”); (Doc. No. 12-1, App’x Vol. II at 4309.) The
claims raised in Petitioner’s first and second state court petitions are not relevant to this
action.
3

3

CASE 0:18-cv-02828-MJD-BRT Document 17 Filed 06/17/19 Page 4 of 15

who testified, as noted above, that Evans told him that Evans, Petitioner, and another
individual killed Gatlin. Evans died before trial, and over Petitioner’s objection, the state
court allowed Williams to testify about what Evans allegedly told him, holding that
Evans’s statement was against his penal interest and that Williams’s testimony had
indicators of reliability because he claimed to have given police information to protect his
friend Rajab Jabbar. According to the prosecution’s argument, Williams feared Jabbar
was in danger because of information Jabbar had given in an earlier case involving the
murder of an individual nicknamed “Steezo.” In prison, Petitioner ran into Jabbar, and
Jabbar told Petitioner that Williams, not Jabbar, had informed police in the Steezo case.
Jabbar further stated that he was with Williams and Evans when Evans allegedly
implicated Petitioner, and according to Jabbar, Evans did not implicate Petitioner.
Instead, it was Williams who told Jabbar that he (Williams), Evans, and another
individual committed the murder and got away with it. (See Habeas Pet., Ground One.)
Petitioner also raised claims based on an affidavit from Willie Scott. Petitioner
met Scott in prison in late 2015. Scott explained that he saw a newspaper article about
Andrew Neal being a confidential informant and then met Neal in prison in St. Cloud.
According to Scott, Neal stated that Petitioner did not actually confess to killing Gatlin.
Neal explained that he tried to implicate Petitioner in the crime, but the police wanted to
hear a confession. Neal knew that he could not get a confession from Petitioner, so he
told Dedra Johnson that Petitioner committed the crime and told her that when he brought
her cousin Therian over, Dedra needed to tell him that Petitioner had confessed to
committing the crime. At trial, Johnson testified that Petitioner did not confess, and the
4

CASE 0:18-cv-02828-MJD-BRT Document 17 Filed 06/17/19 Page 5 of 15

prosecution impeached Johnson with her grand jury testimony that Petitioner did confess
to her. (See Habeas Pet., Ground Three.)
Petitioner argued that the Jabbar and Scott affidavits were newly discovered
evidence and evidence of false testimony. Henderson III, 906 N.W.2d at 505. Petitioner
additionally argued that the newly discovered evidence was evidence of a violation of
Brady v. Maryland, 373 U.S. 83 (1963), or in the alternative, demonstrated an
ineffective-assistance-of-counsel claim. See id. The district court denied relief on
November 30, 2016, and on January 31, 2018, the Minnesota Supreme Court affirmed.
Id. at 503, 508. The court found that the petition was untimely because it was not filed
within two years of the conviction becoming final, as required by Minnesota law. Id. at
505 (citing Minn. Stat. § 590.01, subd. 4.) The court also found that the affidavits did not
meet the newly-discovered-evidence exception to the Minnesota statute of limitations. Id.
at 506 (citing Minn. Stat. § 590.01, subd. 4(b)(2)). The court reasoned that the facts
alleged in the affidavits did not meet the exception’s requirement that the evidence would
establish Petitioner’s innocence by a clear and convincing standard. Id. The court
reasoned:
Even accepting the affidavits of [Jabbar] and [Scott] as true, the facts
alleged in Henderson’s petition are legally insufficient to show his
innocence by a clear and convincing standard. At most, [Scott]’s affidavit
shows that [Andrew Neal] lied to [Dedra Johnson]. It does not call into
question [Johnson’s] credibility or her testimony that Henderson told her he
‘did it’ when referring to Gatlin’s murder. Similarly, [Jabbar]’s affidavit
states only that [Herbert Williams] was also involved in the murder. It does
not exculpate Henderson because multiple people were involved in Gatlin’s
murder.

5

CASE 0:18-cv-02828-MJD-BRT Document 17 Filed 06/17/19 Page 6 of 15

Moreover, other evidence of Henderson’s guilt remains regardless of
whether the affidavits are true. The evidence does not affect [April Bell]’s
testimony that Henderson was at the murder scene, [April Bell]’s mother’s
testimony that Henderson helped dispose of the gun, [April Bell]’s cousin’s
testimony that Henderson encouraged others to lie to police about his
whereabouts at the time Gatlin was killed, or Henderson’s inculpatory
statements to [Paul Givens] about details of the murder.
Henderson III, 906 N.W.2d at 507–08 (internal citations omitted). Petitioner petitioned
for a writ of certiorari, which was denied on October 1, 2018. (Doc. No. 12, App’x Vol. I
at 32, 385.)
C.

Petitioner’s Request for Federal Habeas Relief

Petitioner filed this action on October 2, 2018. (See Habeas Pet.) Petitioner asserts
three claims for relief in his petition: (1) the prosecution’s failure to provide newlydiscovered exculpatory evidence before trial, as set forth in the Jabbar Affidavit, violated
Brady v. Maryland, 373 U.S. 83 (1963); (2) as an alternative to the Brady claim, if the
newly-discovered evidence in the Jabbar Affidavit was known to Petitioner’s counsel,
Petitioner received ineffective assistance of counsel at trial when counsel failed to use
that evidence at trial; and (3) the state court made an unreasonable determination of fact
regarding newly-discovered evidence set forth in the Scott Affidavit that he did not
confess to murdering Gatlin. (Doc. No. 1, Habeas Pet.) This Court concludes the petition
should be dismissed because Petitioner’s claims are procedurally defaulted. In the
alternative, this Court also concludes that Petitioner’s first two claims are untimely under
the one-year limitations period set forth in the Anti-Terrorism and Effective Death
Penalty Act (“AEDPA”), and Petitioner’s third claim does not present a cognizable claim
for review in this federal habeas action.
6

CASE 0:18-cv-02828-MJD-BRT Document 17 Filed 06/17/19 Page 7 of 15

II.

Analysis
A.

Procedural Default and Exhaustion

Procedural default and exhaustion are distinct but related concepts. Before seeking
a federal writ of habeas corpus, a state prisoner must generally exhaust available state
remedies. 28 U.S.C. § 2254(b)(1)(A). This requirement gives the State “the opportunity
to pass upon and correct alleged violations of its prisoners’ federal rights.” Baldwin v.
Reese, 541 U.S. 27, 29 (2004). “To provide the State with the necessary ‘opportunity,’
the prisoner must ‘fairly present’ his claim in each appropriate state court (including a
state supreme court with powers of discretionary review), thereby alerting that court to
the federal nature of the claim.” Id.; see also O’Sullivan v. Boerckel, 535 U.S. 838, 845
(1999). “If a prisoner has not presented his habeas claims to the state court, the claims are
defaulted if a state procedural rule precludes him from raising the issues now.” Middleton
v. Roper, 455 F.3d 838, 855 (8th Cir. 2006).
The exhaustion requirement is satisfied if a procedural bar precludes further
proceedings in state court. See Gray v. Netherland, 518 U.S. 152, 161–62 (1996)
(explaining that because the exhaustion requirement “refers only to remedies still
available at the time of the federal petition,” the exhaustion requirement “is satisfied if it
is clear that the habeas petitioner’s claims are now procedurally barred under state law”).
However, while the exhaustion requirement is satisfied in that instance, “the procedural
bar that gives rise to exhaustion provides an independent and adequate state-law ground
for the conviction and sentence, and thus prevents federal habeas corpus review of the

7

CASE 0:18-cv-02828-MJD-BRT Document 17 Filed 06/17/19 Page 8 of 15

defaulted claim.” Id. at 162 (citing Teague v. Lane, 489 U.S. 288 (1989) and Wainright v.
Sykes, 433 U.S. 72 (1977)).
Procedural default may be excused if the petition alleges facts to demonstrate that:
(1) there exists cause for the default and actual prejudice as a result of the alleged
violation of federal law; or (2) failure to consider the claim will result in a fundamental
miscarriage of justice, as in actual innocence. See Weaver v. Kelly, Case No. 1:18-cv01048, 2019 WL 2134617, at *3 (W.D. Ark. Apr. 24, 2019) (citing Coleman v.
Thompson, 501 U.S. 722, 750 (1991)).
B.

Petitioner’s Claims are Procedurally Defaulted

Petitioner’s claims are premised upon the Jabbar and Scott affidavits. (See Doc.
No. 16, Ex. 1, Affidavit of Rajab Jabbar (“Jabbar Aff.”); Ex. 2, Affidavit of Willie Scott
(“Scott Aff.”).) In state court, as noted above, Petitioner argued that these affidavits were
newly-discovered evidence and evidence of false testimony. Henderson III, 906 N.W.2d
at 505. Petitioner also argued that the newly discovered evidence established a Brady
violation, or in the alternative, demonstrated that his trial counsel was ineffective. Id. The
postconviction court found that Petitioner’s action was untimely and failed to satisfy the
newly-discovered-evidence exception to untimeliness under Minnesota state law. See id.
(citing Minn. Stat. § 590.01, subd. 4(b)(2)). The Minnesota Supreme Court affirmed,
finding that facts alleged in the petition were legally insufficient to satisfy the
requirement to establish the existence of evidence which, if true, would establish
Petitioner’s innocence by clear and convincing evidence. Id. at 506. Accordingly,
Petitioner’s claims are procedurally defaulted because they were found to be untimely
8

CASE 0:18-cv-02828-MJD-BRT Document 17 Filed 06/17/19 Page 9 of 15

under Minnesota state law. Respondent argues that only ground two––Petitioner’s
ineffective assistance of counsel claim––is procedurally defaulted. (Doc. No. 10, Resp’t’s
Mem. 19–20.) To the contrary, this Court concludes that all of Petitioner’s claims are
procedurally defaulted. The Minnesota Supreme Court refused to consider the merits of
any of Petitioner’s claims. See Henderson III, 906 N.W.2d at 508 n.7.
Petitioner argues that the procedural bar applied by the Minnesota courts is not an
independent and adequate basis to cause the forfeiture of his claims in federal court.
(Doc. No. 27, Pet’r’s Mem. 27–30.) Procedural default of a claim under state law may
constitute an independent and adequate state ground to bar consideration in federal court,
but only if the state procedural rule is firmly established, regularly followed, and readily
ascertainable. White v. Bowersox, 206 F.3d 776, 780 (8th Cir. 2000). The Supreme Court
has stressed that “a state procedural ground is not ‘adequate’ unless the procedural rule is
‘strictly or regularly followed.’” Hathorn v. Lovorn, 457 U.S. 255, 263 (1982) (quoting
Barr v. City of Columbia, 378 U.S. 146, 149 (1964)). In addition, state courts “may not
avoid deciding federal issues by invoking procedural rules that they do not apply
evenhandedly to all similar claims.” Id. Thus, the “relevant inquiry” is to “determine if
the rule is strictly or regularly followed,” and then to “determine if the rule has been
applied evenhandedly to all similar claims.” Echols v. Kemna, 511 F.3d 783, 786 (8th
Cir. 2007).
In support of his argument, Petitioner cites Minnesota cases that did not apply or
disregarded the limitations period in Minn. Stat. § 590.01, subd. 4(a). See, e.g., Vang v.
State, 788 N.W.2d 111, 114 (Minn. 2010) (declining to time bar a petition under
9

CASE 0:18-cv-02828-MJD-BRT Document 17 Filed 06/17/19 Page 10 of 15

§ 590.01, subd. 4(a), where petitioner’s sentence was void due to lack of subject-matter
jurisdiction); Carlton v. State, 816 N.W.2d 590, 623 n.3 (Minn. 2012) (Page, J.
dissenting) (providing a list of cases in which the Minnesota Supreme Court “reviewed
the merits of appeals that were deemed untimely for one reason or another”). Even
though the limitations period has not been applied in a variety of contexts for a variety of
reasons, it does not follow that the rule is inadequate to bar federal review in the instant
case. See White v. Minnesota, Civil No. 14-3459 (ADM/BRT), 2015 WL 5672984, at *2
(D. Minn. Sept. 23, 2015) (stating that the court is “satisfied” that the limitations period is
“firmly established and regularly followed”) (collecting cases).
Moreover, the correct inquiry in this case is whether the exception to the
limitations period set forth in subdivision 4(b)(2), in particular the requirement that the
newly-discovered evidence “establishes by a clear and convincing standard that the
petitioner is innocent of the offense or offenses for which the petitioner was convicted,”
is “strictly or regularly followed,” and is “applied evenhandedly to all similar claims.”
Several cases have found the exception not satisfied because the newly-discovered
evidence did not establish innocence under the clear and convincing standard. See, e.g.,
Rhodes v. State, 875 N.W.2d 779, 788 (Minn. 2016) (“We conclude that, even if the
scientific evidence alleged in Rhodes’s fourth petition were proven to be true at an
evidentiary hearing, it would not satisfy the innocence prong of the newly-discoveredevidence exception.”); Scott v. State, 788 N.W.2d 497, 502 (Minn. 2010) (concluding that
evidence did not establish the defendant’s innocence by a clear and convincing standard
because “there was still a significant amount of properly admitted evidence supporting
10

CASE 0:18-cv-02828-MJD-BRT Document 17 Filed 06/17/19 Page 11 of 15

[his] guilt”). Therefore, the exception is regularly followed and applied to bar claims,
such as those brought by Petitioner, based on newly-discovered evidence that does not
establish innocence under the clear and convincing standard. See, e.g., Echols, 511 F.3d
at 788 (finding a state procedural rule adequate to bar petitioner from federal habeas
relief because “the rule is applied consistently to similarly situated defendants”).
Based on the foregoing, this Court concludes that Petitioner’s claims are
procedurally defaulted.
C.

Procedural Default Will Not Result in a Fundamental Miscarriage of
Justice

Petitioner argues that his claims should be considered because if they are
procedurally defaulted, it would result in a fundamental miscarriage of justice. (Pet’r’s
Mem. 30–33.) To satisfy this exception to the procedural bar against defaulted claims, a
petitioner must “present new evidence that affirmatively demonstrates that he is innocent
of the crime for which he was convicted.” Murphy v. King, 652 F.3d 845, 850 (8th Cir.
2011). “First, the petitioner’s allegations of constitutional error must be supported with
new reliable evidence that was not presented at trial. Second, the petitioner must establish
that it is more likely than not that no reasonable juror would have convicted him in the
light of the new evidence.” Weeks v. Bowersox, 119 F.3d 1342, 1351 (8th Cir. 1997).
As explained by the Minnesota Supreme Court, Petitioner’s newly-discovered
evidence does not undermine evidence of Petitioner’s guilt, such as testimony about his
presence at the crime scene, that he helped dispose of the murder weapon, that he
encouraged others to lie about his whereabouts, and that he made inculpatory statements.
11

CASE 0:18-cv-02828-MJD-BRT Document 17 Filed 06/17/19 Page 12 of 15

Henderson III, 906 N.W.2d at 507–08. Petitioner’s evidence does not establish actual
innocence. “Due to important comity and finality interests, the actual innocence gateway
is very limited. Few petitions are ‘within the narrow class of cases implicating a
fundamental miscarriage of justice.’” Weeks, 119 F.3d at 1351 (quoting Schlup v. Delo,
513 U.S. 298, 315 (1995)).
Therefore, the procedural default of Petitioner’s claims would not result in a
fundamental miscarriage of justice.
D.

Petitioner’s First Two Claims are Untimely Under the AEDPA

The AEDPA establishes a one-year limitations period that begins to run from the
latest of a series of dates, including, as relevant here, “the date on which the judgment
became final by the conclusion of direct review or the expiration of the time for seeking
such review,” 28 U.S.C. § 2244(d)(1)(A), and “the date on which the factual predicate of
the claim or claims presented could have been discovered through the exercise of due
diligence,” § 2244(d)(1)(D). Respondent argues, and this Court agrees, that Petitioner’s
Brady and ineffective assistance of counsel claims are untimely, whether the limitations
period begins to run based on either of these provisions. (Resp’t’s Mem. 12–16.)
In response, Petitioner argues that the untimeliness of these claims should be
excused because he can make a showing of actual innocence. (Pet’r’s Mem. 22–24); see
McQuiggin v. Perkins, 133 S. Ct. 1924, 1935–36 (2013) (holding that a Schlup actual
innocence showing provides a gateway past the AEDPA statute of limitations). As
discussed above, however, Petitioner’s newly-discovered evidence falls short of
demonstrating actual innocence.
12

CASE 0:18-cv-02828-MJD-BRT Document 17 Filed 06/17/19 Page 13 of 15

E.

Petitioner’s Claim that the State Court Made an Unreasonable
Determination of Fact

Petitioner’s third claim is that the state court made an “unreasonable determination
of fact” regarding the newly-discovered evidence in relation to his confession. This claim
seems to take issue with the state court’s conclusion that the newly-discovered Scott
Affidavit, even if presumed to be true, does not establish Petitioner’s innocence by clear
and convincing evidence.
As discussed above, this Court concludes that all three of Petitioner’s claims are
procedurally defaulted. An additional problem with this claim, however, is that it does
not appear to be tied to an independent constitutional violation that occurred at
Petitioner’s trial. See Herrerra v. Collins, 506 U.S. 390, 400 (1993) (“Claims of actual
innocence based on newly discovered evidence have never been held to state a ground for
habeas relief absent an independent constitutional violation occurring in the underlying
state criminal proceeding.”) (emphasis added). Moreover, to the extent that Petitioner
may be arguing that his due process rights were violated during the postconviction
proceedings, procedural violations during state collateral proceedings are issues unrelated
to the cause of detention and cannot form the basis for habeas relief. See Johnson v.
Florida Dep’t of Corr. Sec’y, Case No. 4:17cv93/WS/EMT, 2018 WL 3056700, at *3
(N.D. Fla. May 16, 2018) (collecting cases); see also Williams-Bey v. Trickey, 894 F.2d
314, 317 (8th Cir. 1990); Williams v. State, 640 F.2d 140, 143–44 (8th Cir. 1981)
(“[I]nfirmities in the state’s post-conviction proceeding do not . . . render a prisoner’s

13

CASE 0:18-cv-02828-MJD-BRT Document 17 Filed 06/17/19 Page 14 of 15

detention unlawful or raise constitutional questions cognizable in habeas corpus
proceedings.”).
Therefore, even if not procedurally defaulted, Petitioner’s third claim would fail
on the merits.
III.

Certificate of Appealability
Finally, this Court notes that a § 2254 habeas corpus petitioner cannot appeal an

adverse ruling on his petition unless he is granted a Certificate of Appealability (“COA”).
28 U.S.C. § 2253(c)(1)(A); Fed. R. App. P. 22(b)(1). A COA should not be granted
unless the petitioner “has made a substantial showing of the denial of a constitutional
right.” 28 U.S.C. § 2253(c)(2). Petitioner “must demonstrate that reasonable jurists would
find the district court’s assessment of the constitutional claims debatable or wrong.”
Slack v. McDaniel, 529 U.S. 473, 484 (2000). When a habeas petition is denied on
procedural grounds without reaching the underlying merits, “a COA should issue when
the prisoner shows, at least, that jurists of reason would find it debatable whether the
petition states a valid claim of the denial of a constitutional right and that jurists of reason
would find it debatable whether the district court was correct in its procedural ruling.” Id.
Jurists of reason would not debate whether the state procedural rule is adequate to
bar Petitioner’s claims, or that Petitioner has not presented evidence demonstrating actual
innocence. Therefore, this Court recommends that a COA should not be issued.

14

CASE 0:18-cv-02828-MJD-BRT Document 17 Filed 06/17/19 Page 15 of 15

RECOMMENDATION
Based on the foregoing, and on all of the files, records, and proceedings herein, IT
IS HEREBY RECOMMENDED that:
1.

Respondent’s Motion to Dismiss (Doc. No. 11) be GRANTED;

2.

Petitioner’s petition for a writ of habeas corpus (Doc. No. 1) be DENIED;

3.

Petitioner’s request for a certificate of appealability be DENIED; and

4.

This action be DISMISSED WITH PREJUDICE.

Date: June 17, 2019.
s/ Becky R. Thorson
BECKY R. THORSON
United States Magistrate Judge

NOTICE
Filing Objections: This Report and Recommendation is not an order or judgment of the
District Court and is therefore not appealable directly to the Eighth Circuit Court of
Appeals. Under Local Rule 72.2(b)(1), “a party may file and serve specific written
objections to a magistrate judge’s proposed finding and recommendations within 14 days
after being served a copy” of the Report and Recommendation. A party may respond to
those objections within 14 days after being served a copy of the objections. LR
72.2(b)(2). All objections and responses must comply with the word or line limits set for
in LR 72.2(c).

15

Appendix D

STATE OF MINNESOTA
IN SUPREME COURT
A17-0124

Hennepin County

Hudson, J.

Keith Henderson,
Appellant,
vs.

Filed: January 31, 2018
Office of Appellate Courts

State of Minnesota,
Respondent.
________________________

Zachary A. Longsdorf, Longsdorf Law Firm, PLC, Inver Grove Heights, Minnesota, for
appellant.
Lori Swanson, Attorney General, Saint Paul, Minnesota; and
Michael O. Freeman, Hennepin County Attorney, Brittany D. Lawonn, Assistant County
Attorney, Minneapolis, Minnesota, for respondent.
________________________
SYLLABUS
1.

A postconviction court must accept the facts alleged in the petition as true

when deciding whether a postconviction petition may be denied without holding an
evidentiary hearing.

1

2.

The postconviction court did not abuse its discretion when it summarily

denied appellant’s third petition for postconviction relief because the petition did not
clearly and convincingly establish appellant’s innocence in order to satisfy the newlydiscovered-evidence exception under Minn. Stat. § 590.01, subd. 4(b)(2) (2016).
Affirmed.
Considered and decided by the court without oral argument.
OPINION
HUDSON, Justice.
This case is an appeal from the denial of Keith Henderson’s third petition for
postconviction relief, which asserts several claims based on facts alleged in two sworn
affidavits. The postconviction court summarily denied Henderson’s petition because it was
filed after the statute of limitations in Minn. Stat. § 590.01, subd. 4(a) (2016), expired, and
failed to meet the newly-discovered-evidence exception in subdivision 4(b)(2). Because
the affidavits are legally insufficient to establish that Henderson is innocent of the offenses
of which he was convicted, the postconviction court did not abuse its discretion when it
summarily denied the petition as untimely filed. We affirm.
FACTS
In 1998, Juwan Gatlin was killed by fellow gang members in an alleyway in
Minneapolis.1 He was shot between 13 and 15 times. Following a police investigation,

The facts underlying Henderson’s crimes are set forth in detail in State v.
Henderson, 620 N.W.2d 688, 693–95 (Minn. 2001).
1

2

Henderson was indicted for first-degree premeditated murder, Minn. Stat. § 609.185(1)
(2016), and a crime committed for the benefit of a gang, Minn. Stat. § 609.229 (2016).
Donte Evans and Darryl McKee were also indicted for Gatlin’s murder.
Henderson, McKee, Evans, and Gatlin were all members of a street gang known as
the Mickey Cobras. Gatlin was killed because he gave information to police that led to the
arrest of two other Mickey Cobra members for an unsolved murder. At trial, the State
presented several witnesses who testified to Henderson’s involvement in Gatlin’s murder.
The testimony of H.W., A.N., and D.J. is relevant to this appeal.
H.W., another Mickey Cobra, testified that Evans told him about Henderson’s
involvement in Gatlin’s murder. H.W. described two conversations with Evans, one in a
car and one in a hallway. H.W. said that he, his “little cousin,” and Evans were in a car
together when Evans said, “T, we got away with it . . . we got [Gatlin], we got [Gatlin].”2
The “little cousin” to whom H.W. referred at trial was R.J., although the identity of the
“little cousin” was not known at trial.
The other conversation, which took place in a hallway, occurred later that same day.
During that conversation, Evans provided more detail about Gatlin’s murder. Evans told
H.W. that he, Henderson, McKee, “QC,” “Rock,” and “Looney” were involved in killing
Gatlin. According to H.W., Evans told him that Henderson shot Gatlin first, then passed
the gun to Evans, who shot Gatlin several more times. Evans also told H.W. that Gatlin
said, “I’m dead, T, I’m dead.”

2

“T” is a slang term that the Mickey Cobras use to refer to each other.
3

During the investigation into Gatlin’s death, H.W. and R.J. were initially considered
suspects. H.W. later told police what Evans had told him about the murder. H.W. testified
that he went to the police because R.J. was next on the gang’s “hit” list, and H.W. was
afraid that he would also be killed because he was always with R.J. When asked why R.J.
was on the “hit” list, H.W. testified that “[Evans] didn’t ever say why they wanted to kill
[R.J.]. They just said he was off his square or something like that, messing with his
girlfriend,” but also said that R.J. was on the “hit” list because R.J. told police that “Penny”
was involved in an unrelated murder.3
A.N., another Mickey Cobra, testified that he went to the police several times
following Gatlin’s murder. He told police that he believed that D.J., Gatlin’s former
girlfriend and Henderson’s neighbor, had information about the murder. A.N. also testified
that he spoke directly to D.J. about Gatlin’s death, and that A.N. and Henderson did not
get along.
D.J. testified that she heard details about the murder from A.N. She also testified
that Henderson told her “I did it” in reference to Gatlin’s murder, but when she expressed
surprise, Henderson said he was joking. D.J. had previously testified before the grand jury
that Henderson told her that he shot Gatlin after pushing him in an alley, but she recanted
this testimony at trial. The trial court admitted her grand jury testimony as substantive
evidence of Henderson’s guilt.

3

“Penny” appears to be a street name. The identity of this person is unknown.
4

Several other witnesses provided evidence of Henderson’s involvement in Gatlin’s
murder. A.B. testified that Henderson was at the murder scene. A.B.’s mother testified
that Henderson helped dispose of the gun used to kill Gatlin. A.B.’s cousin testified that
Henderson told her to tell A.B. that she should tell police that Henderson was out of town
at the time of the murder.

P.G., one of Henderson’s fellow inmates, testified that

Henderson told him that he pushed a guy over in an alley and shot him in the leg, arm, and
head, and the victim said, “[d]on’t shoot me no more. I’m already dead.”
Henderson was convicted of first-degree premeditated murder following a jury trial.
We affirmed Henderson’s convictions and sentences on direct appeal. State v. Henderson,
620 N.W.2d 688 (Minn. 2001). Between 2001 and 2004, Henderson filed two petitions for
postconviction relief, both of which were denied. In 2016, Henderson filed a third petition
for postconviction relief based on facts alleged in two affidavits signed by R.J. and W.S.
Both affidavits are notarized.
R.J.’s affidavit is dated April 2015 and contradicts aspects of H.W.’s trial testimony.
His affidavit provides three pieces of relevant information: (1) R.J. is H.W.’s “little
cousin,” who was present during the conversation in the car, and it was H.W., not Evans,
who said “T, we got away with [killing Gatlin]”; (2) H.W. told R.J. that H.W. shot Gatlin
three or four times and provided other details about the murder; and (3) it was H.W., not
R.J., who told police that “Penny” was involved in an unrelated murder.
W.S.’s affidavit is dated December 2015 and relates to A.N.’s and D.J.’s trial
testimony. His affidavit provides two pieces of relevant information: (1) A.N. told W.S.

5

that he lied to D.J. about Henderson’s involvement in the murder to frame Henderson; and
(2) A.N. gave the false information because he did not like Henderson.
Based on these two affidavits, Henderson filed his third petition for postconviction
relief, arguing that the affidavits were newly discovered evidence and also evidence of
false testimony. He additionally asserted that the newly discovered evidence was evidence
of a violation of Brady v. Maryland, 373 U.S. 83 (1963), or alternatively, demonstrated an
ineffective-assistance-of-counsel claim. Henderson requested an evidentiary hearing.
The postconviction court denied Henderson’s petition without holding an
evidentiary hearing, concluding that his petition was filed after the statute of limitations in
Minn. Stat. § 590.01, subd. 4(a) had expired, and that his petition failed to satisfy the
newly-discovered-evidence exception in subdivision 4(b)(2). The court also found that
Henderson’s Brady and ineffective-assistance-of-counsel claims lacked factual support.
Henderson challenges the postconviction court’s conclusion that his petition did not meet
the newly-discovered-evidence exception, and its decision to deny relief without holding
an evidentiary hearing, in this appeal.
ANALYSIS
“We review a denial of a petition for postconviction relief, as well as a request for
an evidentiary hearing, for an abuse of discretion.” Riley v. State, 819 N.W.2d 162, 167
(Minn. 2012). A postconviction court does not abuse its discretion unless it has “exercised
its discretion in an arbitrary or capricious manner, based its ruling on an erroneous view of
the law, or made clearly erroneous factual findings.” Brown v. State, 863 N.W.2d 781, 786
(Minn. 2015) (citation omitted) (internal quotation marks omitted). A petitioner is entitled
6

to an evidentiary hearing unless the “petition and the files and records of the proceeding
conclusively show that the petitioner is entitled to no relief.” Minn. Stat. § 590.04, subd.
1 (2016). “[A] postconviction evidentiary hearing is not required when the petitioner
alleges facts that, if true, are legally insufficient to grant the requested relief.” Rhodes v.
State, 875 N.W.2d 779, 786 (Minn. 2016) (citations omitted).
Henderson argues that the postconviction court abused its discretion when it
summarily denied his petition as untimely. We disagree. Minnesota Statutes § 590.01,
subd. 4 (2016), provides the framework for determining a postconviction petition’s
timeliness. Subdivision 4(a) provides the statute of limitations for postconviction petitions.
Minn. Stat. § 590.01, subd. 4(a). A petition must be brought within 2 years of the later
of: “(1) the entry of judgment of conviction or sentence if no direct appeal is filed; or (2) an
appellate court’s disposition of [a] petitioner’s direct appeal.” Id. If a petitioner’s
conviction became final before August 1, 2005, like Henderson’s did, the 2-year limitations
period began on August 1, 2005. See Act of June 2, 2005, ch. 136, art. 14, § 13, 2005
Minn. Laws 901, 1097.
Henderson’s petition was undoubtedly filed after the limitations period in
subdivision 4(a) had expired.4 But a petition filed after the 2-year period in subdivision

4

Henderson filed his third postconviction petition nearly 9 years after the deadline.
His conviction became final in April 2001, 90 days after our disposition of his direct appeal.
See Berkovitz v. State, 826 N.W.2d 203, 207 (Minn. 2013) (explaining that a decision
becomes final 90 days after our decision when no petition for certiorari is filed with the
Supreme Court of the United States). Because Henderson’s conviction became final before
August 1, 2005, he was required to file his petition within 2 years of August 1, 2005.
7

4(a) has expired may still be timely under one of the five exceptions in subdivision 4(b).
Minn. Stat. § 590.01, subd. 4(b). A petition invoking an exception must be filed within 2
years of the date the claim under an exception arises. Minn. Stat. § 590.01, subd. 4(c). A
claim arises on the date that the petitioner “knew or should have known of the claim” giving
rise to the exception. Sanchez v. State, 816 N.W.2d 550, 560 (Minn. 2012).5
Henderson argues that his petition is timely because the affidavits meet the newlydiscovered-evidence exception in subdivision 4(b)(2). The newly-discovered-evidence
exception requires a petitioner to show that the evidence: (1) is “newly discovered”;
(2) “could not have been ascertained by the exercise of due diligence by the petitioner or
petitioner’s attorney within the 2-year period for filing a postconviction petition”; (3) is
“not cumulative to evidence presented at trial”; (4) is “not for impeachment purposes”; and
(5) “establishes by a clear and convincing standard that the petitioner is innocent of the
offense or offenses for which the petitioner was convicted.” Minn. Stat. § 590.01, subd.
4(b)(2). All five requirements must be met for this exception to apply. Riley, 819 N.W.2d
at 168.
The postconviction court concluded that the affidavits failed the third, fourth, and
fifth requirements of the newly-discovered-evidence exception, and therefore, Henderson’s
petition was untimely. Henderson argues that the postconviction court’s conclusion was

5

The postconviction court did not consider whether Henderson timely invoked the
exception under subdivision 4(c). Because the State does not argue that the petition is
untimely under subdivision 4(c), this argument has been forfeited. See Carlton v. State,
816 N.W.2d 590, 601 (Minn. 2012) (“[T]he statute of limitations in Minn. Stat. § 590.01,
subd. 4(c), is not jurisdictional . . . .”).
8

erroneous. The State challenges the postconviction court’s determination that Henderson
met the first and second requirements of the newly-discovered-evidence exception.
We need not consider all five requirements of the newly-discovered-evidence
exception here because the facts alleged in the petition are legally insufficient to establish
the fifth requirement: that the evidence would establish Henderson’s innocence by a clear
and convincing standard. See Minn. Stat. § 590.01, subd. 4(b)(2). This requirement is
“more stringent” than the Rainer standard, which applies to timely filed petitions. Rhodes,
875 N.W.2d at 783, 788. Thus, there must be “more than an uncertainty” about the
petitioner’s guilt. Brown, 863 N.W.2d at 787–88. A petitioner is not required to establish
that the evidence proves his innocence, but rather must “sufficiently allege the existence of
evidence, which, if true, would establish the petitioner’s innocence by clear and convincing
evidence.” Miles v. State, 800 N.W.2d 778, 784 (Minn. 2011) (second alteration added).
In determining whether a summary denial of a petition is appropriate, a postconviction
court must determine whether the evidence would, “on its face,” demonstrate the
petitioner’s innocence by a clear and convincing standard. Id. at 783.
As a preliminary matter, Henderson argues that the postconviction court erred when
it assessed the credibility of the affidavits from R.J. and W.S in summarily denying his
petition. We agree. When determining whether an evidentiary hearing is required—that
is, when the court may deny a petition without holding a hearing—a postconviction court
must accept the facts alleged in the petition “on [their] face.” Id. at 783–84. Only if the
facts alleged in the petition, accepted as true, fail to establish the petitioner’s innocence by
a clear and convincing standard may a court summarily deny the petition. See Minn. Stat.
9

§ 590.04, subd. 1 (stating that a petitioner is entitled to an evidentiary hearing unless the
record “conclusively show[s] that the petitioner is entitled to no relief”). A petitioner is
otherwise entitled to an evidentiary hearing, and the postconviction court may assess the
credibility of the evidence at that stage. See id.
In Gassler v. State, when discussing the clear-and-convincing standard generally,
we said that “[t]he burden of clear and convincing evidence . . . is met when the truth of
the fact to be proven is ‘highly probable.’ ” 787 N.W.2d 575, 583 (Minn. 2010) (citations
omitted). We also said that “to prove a claim by clear and convincing evidence, a party’s
evidence should be unequivocal, intrinsically probable and credible, and free from
frailties.” Id. (citation omitted). We concluded that Gassler’s alleged evidence failed to
prove his innocence because other evidence of his guilt existed. Id. In Miles, we clarified
that under Gassler, the newly discovered evidence must show the petitioner’s innocence
by a clear and convincing standard “on its face.” 800 N.W.2d at 783–84. We reaffirm now
that when determining whether to summarily deny relief, a postconviction court must
accept the evidence as true. Id. To the extent that Gassler can be read to hold that a
postconviction court may assess the credibility of evidence without holding an evidentiary
hearing, that reading is incorrect. See, e.g., Bobo v. State, 820 N.W.2d 511, 516 (Minn.
2012) (“An evidentiary hearing provides the postconviction court the means for evaluating
the credibility of a witness.” (citations omitted)); State v. Turnage, 729 N.W.2d 593, 598
(Minn. 2007) (“[A]bsent a[n evidentiary] hearing, the postconviction court cannot make a
judgment about which story is true and which is false.” (citation omitted) (internal
quotation marks omitted)).
10

Although the postconviction court improperly assessed the credibility of the
affidavits, we still affirm the postconviction court’s decision. Even accepting the affidavits
of R.J. and W.S. as true, the facts alleged in Henderson’s petition are legally insufficient
to show his innocence by a clear and convincing standard. See Rhodes, 875 N.W.2d at 786
(stating that an “evidentiary hearing is not required” when the alleged facts, “if true, are
legally insufficient to grant the requested relief” (citations omitted)). At most, W.S.’s
affidavit shows that A.N. lied to D.J. It does not call into question D.J.’s credibility or her
testimony that Henderson told her he “did it” when referring to Gatlin’s murder. Similarly,
R.J.’s affidavit states only that H.W. was also involved in the murder.6 It does not
exculpate Henderson because multiple people were involved in Gatlin’s murder.
Moreover, other evidence of Henderson’s guilt remains regardless of whether the
affidavits are true. See, e.g., Scott v. State, 788 N.W.2d 497, 502 (Minn. 2010) (concluding
that evidence did not establish the defendant’s innocence by a clear and convincing
standard because “there was still a significant amount of properly admitted evidence
supporting [his] guilt”). The evidence does not affect A.B.’s testimony that Henderson
was at the murder scene, A.B.’s mother’s testimony that Henderson helped dispose of the
gun, A.B.’s cousin’s testimony that Henderson encouraged others to lie to police about his
whereabouts at the time Gatlin was killed, or Henderson’s inculpatory statements to P.G.
about details of the murder. See Henderson, 620 N.W.2d at 694–95, 705.

The information in R.J’s affidavit regarding who told police that “Penny” was
involved in a different murder equally does not show that Henderson is innocent of the
crimes committed in this case.
6

11

In sum, the alleged facts do not clearly and convincingly show Henderson’s
innocence and therefore fail to satisfy the fifth requirement of the newly-discoveredevidence exception. Accordingly, Henderson’s petition was untimely filed. Because the
facts are legally insufficient to show that Henderson meets the newly-discovered-evidence
exception, the district court did not abuse its discretion when it denied the petition as
untimely without conducting an evidentiary hearing.7
CONCLUSION
For the foregoing reasons, we conclude that the postconviction court did not abuse
its discretion when it summarily denied Henderson’s petition for postconviction relief.
Affirmed.

Because Henderson’s postconviction petition is untimely, we do not reach the merits
of his claims. See, e.g., Berkovitz, 826 N.W.2d at 207 (stating that this court considers the
merits only if the petitioner has first satisfied an exception in Minn. Stat. § 590.01, subd.
4(b)).
7

12

Appendix E

28 U.S. Code § 2254 - State custody; remedies
in Federal courts
(a) The Supreme Court, a Justice thereof, a circuit judge, or a district court shall
entertain an application for a writ of habeas corpus in behalf of a person in custody
pursuant to the judgment of a State court only on the ground that he is in custody
in violation of the Constitution or laws or treaties of the United States.
(b)
(1) An application for a writ of habeas corpus on behalf of a person in custody
pursuant to the judgment of a State court shall not be granted unless it appears
that—
(A) the applicant has exhausted the remedies available in the courts of the State; or
(B)
(i) there is an absence of available State corrective process; or
(ii) circumstances exist that render such process ineffective to protect the rights of
the applicant.
(2) An application for a writ of habeas corpus may be denied on the merits,
notwithstanding the failure of the applicant to exhaust the remedies available in
the courts of the State.
(3) A State shall not be deemed to have waived the exhaustion requirement or be
estopped from reliance upon the requirement unless the State, through counsel,
expressly waives the requirement.

1

(c) An applicant shall not be deemed to have exhausted the remedies available in
the courts of the State, within the meaning of this section, if he has the right under
the law of the State to raise, by any available procedure, the question presented.
(d) An application for a writ of habeas corpus on behalf of a person in custody
pursuant to the judgment of a State court shall not be granted with respect to any
claim that was adjudicated on the merits in State court proceedings unless the
adjudication of the claim—
(1) resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme Court
of the United States; or
(2) resulted in a decision that was based on an unreasonable determination of the
facts in light of the evidence presented in the State court proceeding.
(e)
(1) In a proceeding instituted by an application for a writ of habeas corpus by a
person in custody pursuant to the judgment of a State court, a determination of a
factual issue made by a State court shall be presumed to be correct. The applicant
shall have the burden of rebutting the presumption of correctness by clear and
convincing evidence.
(2) If the applicant has failed to develop the factual basis of a claim in State court
proceedings, the court shall not hold an evidentiary hearing on the claim unless the
applicant shows that—
(A) the claim relies on—

2

(i) a new rule of constitutional law, made retroactive to cases on collateral review by
the Supreme Court, that was previously unavailable; or
(ii) a factual predicate that could not have been previously discovered through the
exercise of due diligence; and
(B) the facts underlying the claim would be sufficient to establish by clear and
convincing evidence that but for constitutional error, no reasonable factfinder would
have found the applicant guilty of the underlying offense.
(f) If the applicant challenges the sufficiency of the evidence adduced in such State
court proceeding to support the State court’s determination of a factual issue made
therein, the applicant, if able, shall produce that part of the record pertinent to a
determination of the sufficiency of the evidence to support such determination. If
the applicant, because of indigency or other reason is unable to produce such part of
the record, then the State shall produce such part of the record and the Federal
court shall direct the State to do so by order directed to an appropriate State
official. If the State cannot provide such pertinent part of the record, then the court
shall determine under the existing facts and circumstances what weight shall be
given to the State court’s factual determination.
(g) A copy of the official records of the State court, duly certified by the clerk of such
court to be a true and correct copy of a finding, judicial opinion, or other reliable
written indicia showing such a factual determination by the State court shall be
admissible in the Federal court proceeding.

3

(h) Except as provided in section 408 of the Controlled Substances Act, in all
proceedings brought under this section, and any subsequent proceedings on review,
the court may appoint counsel for an applicant who is or becomes financially unable
to afford counsel, except as provided by a rule promulgated by the Supreme Court
pursuant to statutory authority. Appointment of counsel under this section shall be
governed by section 3006A of title 18.
(i) The ineffectiveness or incompetence of counsel during Federal or State collateral
post-conviction proceedings shall not be a ground for relief in a proceeding arising
under section 2254.

4

